HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Towards the Medical Costs of Title IV-D Children in New York That Were Paid Under the Medicaid Program,"(A-02-02-02003)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Towards the Medical Costs of Title IV-D Children in
New York That Were Paid Under the Medicaid Program," (A-02-02-02003)
November 14, 2003
Complete
Text of Report is available in PDF format (729 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that 71,158 children in New York, whose noncustodial parents (NCPs) did
not provide court ordered medical support for their children, received Medicaid benefits during calendar year 2001.  Based
on a statistical sample, we estimate that the NCPs of 41,318 of these children could have potentially contributed about
$32.9 million toward total Medicaid costs of $56.1 million paid on their childrens behalf.   New York passed
legislation, effective October 2, 2002, requiring parents to enroll their children in the Medicaid program or the States
Child Health Plus program if private insurance is not available.  In addition, NCPs who possess sufficient means will
now be required to contribute towards the premium costs of the State program that provides health insurance to their children.  The
above estimate of $32.9 million consists of $13.1 million in premium cost savings and $19.8 million in fee-for-service
cost savings.  Because the new legislation does not provide for recovery of fee-for-service costs, New York cannot
currently collect the potential $19.8 million in fee-for-service savings.  We recommended that New York continue working
with the local social services districts to implement the new legislation and consider whether to proceed with the steps
necessary to broaden the States authority to recover fee-for-service costs.